WAIVER

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 19-172
Edina Harsay , University of Kansas
(Petitioner) (Respondent)

 

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check the appropriate boxes:

 

[=| Please enter my appearance as Counsel of Record for all respondents.

 

 

 

( There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondents):

 

 

(=| I am a member of the Bar of the Supreme Court of the United States.

 

 

Iam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. “4

Signature ai CHET —
August 20, 2019

Michael C. Leitch
= Mr. (CO Ms. Mrs. ( Miss
Firm Office of the General Counsel, University of Kansas

Address 240 Strong Hall, 1450 Jayhawk Boulevard
City & State Lawrence, Kansas Zip 66045
(785) 864-3276 Emay Mleitch@ku.edu

 

 

 

Date:

(Type or print) Name

 

 

 

 

Phone
A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Edina Harsay
